             Payment Accuracy
              Task Force Report:
                Title II Relationship and Dependency

Executive
   Determining and paying accurate and timely program benefits is a
Summary
     primary commitment of the Social Security Administration (SSA) to the
             American public, along with good stewardship of the Social Security
             trust fund and the General Revenue fund. Toward these goals, SSA,
             in a cooperative effort with the Office of the Inspector General (OIG),
             created the Payment Accuracy Task Force (PATF) in 1996. Annually,
             an Associate Commissioner-level Steering Committee designates the
             payment error category to be addressed and charters an
             intercomponent issue team to develop agency-wide recommendations
             for policy, programmatic, operational, and systems improvements.

             The PATF Steering Committee selected title II relationship and
             dependency payment errors for its fourth review. From Fiscal Year
             (FY) 1995 through FY 1998, title II relationship and dependency
             payment processing errors accounted for the largest portion of Old-
             Age and Survivors Insurance overpayment dollars, nearly $650 million
             or 40 percent of overpayment dollars, as reported in SSA’s annual
             Stewardship report to the Congress. As of FY 1998, the Stewardship
             report includes reviews of non-medical aspects of title II Disability
             Insurance cases.

             The Social Security Act provides title II benefits payable to the spouse,
             child, or survivor of an entitled disabled, retired, or deceased worker
             and prescribes specific criteria for establishing relationship and
             dependency. Both Federal and State law must be considered in
             determining entitlement to benefits.

             To analyze sources and causes of title II relationship and dependency
             payment errors, we gathered information from as many sources as
             possible during our 120-day charter, April through July 2000. We
             reviewed salient SSA, OIG, and General Accounting Office reports,
             and analyzed all FY 1997 and FY 1998 Index of Dollar Accuracy (IDA)
             and Stewardship deficiency cases. We also analyzed a random
             sample of 223 title II relationship/dependency records from the
             Recovery of Overpayments and Accounting Report (ROAR) system.
             We made site visits to 2 program service centers (PSC) in Philadelphia




                                                                                  i
FY 2000 Payment Accuracy Task Force – Title II Relationship and Dependency




                      and Maryland and 12 field offices in Maryland, Nevada, and Florida.
                      We sought additional input from over 20 key experts in various SSA
                      Headquarters components, members of the PATF Steering
                      Committee, and members of our PATF issue team.

                      Findings and Recommendations
                      Our findings and recommendations focus on title II relationship and
                      dependency payment errors involving child beneficiaries. Our case
                      folder reviews of FY 1997 – FY 1998 IDA and Stewardship payment
                      errors and ROAR records, combined with our field office and PSC staff
                      interviews, pointed us in this direction. As such, we are recommending
                      the following procedural and operational changes to help improve
                      payment accuracy processing for title II relationship and dependency
                      cases involving child beneficiaries.

                      �   Improving Ways to Determine Out-of-Wedlock Child Relationships

                          �	 Revising Form SSA-2519 (Child Relationship Statement) to
                             Consider State Law when Determining Entitlement for
                             Out-of-Wedlock Children

                               Recommendation 1 – Add the following wording to Form
                               SSA-2519 to help claims representatives (CR) develop
                               relationships for out-of-wedlock children: “State of domicile:”
                               and “When considering the status of an out-of-wedlock child for
                               entitlement, a child cannot be disallowed until applicable State
                               intestacy law is considered.”

                          �	 Providing Additional Training to Emphasize Use of State
                             Intestacy Law

                               Recommendation 2 – Place more emphasis on initial CR
                               training and providing subsequent refresher training to
                               emphasize consideration of State intestacy laws before
                               disallowing a claim for an out-of-wedlock child.




                                                                                           ii
FY 2000 Payment Accuracy Task Force – Title II Relationship and Dependency




                      �    Improving Ways of Determining Stepchild Dependency

                           �	 Revising Form SSA-783 (Statement Regarding Contributions)
                              and Developing Supplemental Tools for One-Half Support
                              Computation

                               Recommendation 3 – Modify Form SSA-783 to include the
                               number of individuals in a household and their income.

                               Recommendation 4 – Develop supplemental tool(s) to help
                               with one-half support computations, e.g., an interactive
                               computation screen supported by the Interactive Computation
                               Facility, a worksheet for manual computation, and/or a desk
                               guide.

                           �	 Expanding the Program Operations Manual System (POMS) to
                              Improve Instructions on Determining One-Half Support for
                              Stepchildren

                               Recommendation 5 – Revise POMS to include the information
                               from the September 1996 Office of Retirement and Survivors
                               Insurance program circular on determining one-half support for
                               stepchildren.

                      �	   Emphasizing Use of Shared Process and the Report of Contact
                           Screen to Document Child Relationship Disallowances

                               Recommendation 6 – Stress the importance of field office staff
                               using Shared Process to document evidence and the Report of
                               Contact screen to document special determinations so that
                               reconsideration reviewers have needed information to process
                               requests for reconsideration of an initial determination.

                      �	   Increasing Awareness that Legal Precedent Opinions Are Available
                           in POMS on CD-ROM

                               Recommendation 7 – Distribute a program circular or other
                               form of communication to remind field offices and PSCs that




                                                                                         iii
FY 2000 Payment Accuracy Task Force – Title II Relationship and Dependency




                               legal precedent opinions on State and District of Columbia law
                               are available in POMS on CD-ROM.

                      �    Reinforcing Reporting Responsibilities

                           Recommendation 8 – Reinforce reporting responsibilities either
                           by modifying the MCS screen and application path to output and
                           print the “claim type specific” reporting responsibilities on the
                           application receipt itself or by generating an alert on the
                           Developmental Worksheet as a reminder to print reporting
                           responsibilities. This would eliminate the need to revisit the claims
                           path for additional printing.

                      �	   Studying the Efficacy of Mailing Recontact Forms to Children
                           Ages 15 to 17 to Detect Unreported Marriages

                           Recommendation 9 – Conduct a study to determine the
                           feasibility of continuing to send Beneficiary Recontact Program
                           mailers to children ages 15 to 17, and to discern whether there are
                           more efficacious ways to detect unreported marriages for this age
                           group.


                      Other Cross-Cutting Payment Accuracy Issues
                      We identified four overarching payment accuracy issues during this
                      review. Three of these issues have continued to resurface since
                      PATF’s inception in 1996. We believe all of these issues will continue
                      to impact payment accuracy now, as well as in the future.

                      � Reassessing Reporting Responsibilities

                           Suggestion – SSA convene a workgroup to look at building and
                           implementing a new title II reporting process model.




                                                                                           iv
FY 2000 Payment Accuracy Task Force – Title II Relationship and Dependency




                      � Providing Incentives to Ensure Staff Receive Ongoing Training

                          Suggestion – SSA convene a workgroup to discuss potential
                          incentives for managers to provide time for ongoing training for their
                          employees, e. g., giving some form of workload credit for training.

                          Suggestion – Give all operating component staff the opportunity to
                          receive some type of POMS on CD-ROM refresher training; provide
                          all offices with at least one copy of the reference book, SSA Text
                          Retrieval Application; and inform each office about the POMS on
                          CD-ROM hotline.

                     �    Supplementing Interactive Video Training

                          Suggestion – Seek ways to supplement IVT training with on-site
                          face-to-face training. Also, routinely canvas field offices on which
                          policies they need refresher training. Follow up those suggestions
                          with on-site training conducted by employees skilled in both policy
                          application and training delivery. The pool of trainers could be
                          drawn from employee volunteers who have the incentive and skills
                          to meet the identified training needs. Also, conduct an evaluation
                          of IVT delivery to maximize its effectiveness.

                      � Obtaining “Proof of Age” Needed for Entitlement

                          Suggestion – Modify appointment notices to read “Original birth
                          certificate, if available, or other proof of birth.”




                                                                                           v
Table of Contents

EXECUTIVE SUMMARY ................................................................................i


INTRODUCTION ............................................................................................ 1


FINDINGS AND RECOMMENDATIONS................................................... 5


�	   Improving Ways of Determining Out-of-Wedlock Child

     Relationships ............................................................................................ 5


     �	 Revising Form SSA-2519 (Child Relationship Statement) to

        Consider State Law when Determining Entitlement for Out-of-

        Wedlock Children................................................................................ 6


          Recommendation 1 ............................................................................ 7


     �	 Providing Additional Training to Emphasize Use of

        State Intestacy Law............................................................................ 7


          Recommendation 2 ............................................................................ 8


�    Improving Ways of Determining Stepchild Dependency ................... 8


     �	 Revising Form SSA-783 (Statement Regarding

        Contributions) and Developing Supplemental Tools For

        One-Half Support Computation........................................................ 9


          Recommendations 3 and 4 ............................................................... 9


     �	 Expanding the Program Operations Manual System

        (POMS) to Improve Instructions on Determining

        One-Half Support for Stepchildren.................................................10


          Recommendation 5 ..........................................................................10


�	   Emphasizing Use of Shared Process and the Report of Contact

     Screen to Document Child Relationship Disallowances ..................11


          Recommendation 6 ..........................................................................12


�	   Increasing Awareness that Legal Precedent Opinions

     Are Available on POMS on CD-ROM..................................................12


          Recommendation 7 ..........................................................................13

Table of Contents (continued)

�    Reinforcing Reporting Responsibilities...............................................13

         Recommendation 8 ..........................................................................14

�	   Studying the Efficacy of Mailing Recontact Forms to Children
     Ages 15 to 17 to Detect Unreported Marriages.................................14

         Recommendation 9 ..........................................................................15

RECAP OF RECOMMENDATIONS.........................................................16

OTHER CROSS-CUTTING PAYMENT ACCURACY ISSUES ...........19

APPENDICES

APPENDIX A – Payment Accuracy Task Force Steering Committee

APPENDIX B – Fiscal Year 2000 Payment Accuracy Issue
            Team

APPENDIX C – Types of Title II Relationship/Dependency Deficiencies

APPENDIX D – Title II Relationship/Dependency-Related Initiatives

APPENDIX E – Title II Relationship/Dependency Payment Deficiency
             Dollars

APPENDIX F – Recovery of Overpayment Accounting and Reporting
             System Data Extract Summary

APPENDIX G – Social Security Administration Key Contacts

APPENDIX H - Modernized Claims System Title II
             Relationship/Dependency Screens
Acronyms

CR         Claims Representative

DI         Disability Insurance

FY         Fiscal Year

IDA        Index of Dollar Accuracy

IVT        Interactive Video Training

MCS        Modernized Claims System

NH         Number Holder

OASI       Old-Age and Survivors Insurance

OIG        Office of the Inspector General

OPB        Office of Program Benefits

OQA        Office of Quality Assurance and Performance Assessment

ORSI       Office of Retirement and Survivors Insurance

PATF       Payment Accuracy Task Force

POMS       Program Operations Manual System

PSC        Program Service Center

RCC        Regional Chief Counsel

RPOC       Report of Contact

ROAR       Recovery of Overpayments and Accounting Report

RSI        Retirement and Survivors Insurance

SSA        Social Security Administration

SSN        Social Security number

SR         Service Representative




Forms
SSA-783    Statement Regarding Contributions

SSA-1372   Student’s Statement Regarding School Attendance

SSA-1387   Advance Notice of Termination of Child’s Benefits

SSA-1388   Report of Student Beneficiary at End of School Year

SSA-1587   Children Ages 15-17

SSA-1588   Children in Direct Pay or Young Widows With a Child

SSA-1390   Report of Student Beneficiary About to Attain Age 19

SSA-2519   Child Relationship Statement

Glossary of Terms

Error Dollars — Incorrect over- and underpayments made to a
   case as a whole.

Deficiency Dollars — Errors, which may be multiple, made to a case
   causing incorrect payments.

Index of Dollar Accuracy Review — Measures the accuracy of initial
   claims decisions (awards and disallowances) and estimates the
   impact of over- and underpayments by projecting their value over
   the expected life of the award, i.e., projected over 150 months.

Intestacy — Pertains to inheritance rights; dying without leaving a will.

FY 1998 Stewardship Payment Accuracy Rates*
   •	 Retirement and Survivors Insurance (RSI) over- and
      underpayments – 99.9 percent each
   •	 Disability Insurance (DI) overpayments – 99.1percent;
      underpayments – 96.7 percent

FY 1997 Index of Dollar Accuracy RSI Payment Accuracy Rates*
   • 99.8 percent

Stewardship Review – Provides an overall payment accuracy for all
   beneficiaries in current pay status. Monthly, about 80 RSI and
   40 title II DI cases are selected for review, which includes
   interviewing recipients or representative payees, making collateral
   contacts (as needed), and redeveloping all factors of eligibility as of
   the current sample month.

*Most recent available data
               Payment Accuracy
                 Task Force Report:
                  Title II Relationship and Dependency

Introduction   The Social Security Administration (SSA) is strongly committed to
               maintaining a high payment accuracy rate, along with responsible
               stewardship for both the Social Security trust fund and the General
               Revenue fund. In Fiscal Year (FY) 1999, SSA paid $386 billion in Old-
               Age, Survivors, and Disability Insurance benefit payments to almost
               44.6 million beneficiaries, 1 including retired and disabled workers, their
               dependents, and survivors of insured workers. 2 SSA is vigilant in its
               efforts to ensure slippage does not occur in payment accuracy rates,
               especially when a small number of case errors can potentially result in
               sizeable dollar errors. For example, based on the amount of benefits
               paid in calendar year 1999, each tenth of a percentage point of
               benefits incorrectly paid would equate to approximately $386 million in
               incorrect payments.

               Payment Accuracy Task Force

               The Payment Accuracy Task Force (PATF) initiative is a cooperative
               effort between SSA and the Office of the Inspector General (OIG) to
               help ensure that payment accuracy rates remain high. Annually, an
               Associate Commissioner-level Steering Committee selects a payment
               error category for review and charters an intercomponent issue team. 3
               The Issue Team develops agency-wide recommendations addressing
               the designated concern (see Appendices A and B). PATF assists SSA
               in its efforts to improve payment accuracy by identifying policy,
               program, operational, and systems changes that facilitate world-class
               service delivery. Since October 1996, PATF has issued three reports
               addressing either Old-Age and Survivors Insurance (OASI)




               1
                The 2000 Annual Report to the Board of Trustees of the Federal Old-Age and
               Survivors and Disability Insurance Trust Funds, Pursuant to 42 U.S.C.401(c) and
               1395t(b)(2)
               2
                Approximately 12 million or 28 percent of these beneficiaries receive benefits as a
               worker’s dependent.
               3
                The Index of Dollar Accuracy and Stewardship reports are used to determine the
               payment error category for review.


                                                                                                 1
FY 2000 Payment Accuracy Task Force – Title II Relationship and Dependency




                    records or Supplemental Security Income earned and unearned
                    income payment deficiencies. 4

                    FY 2000 Issue — Title II Relationship and Dependency Payment
                    Errors

                    PATF’s fourth review is title II relationship and dependency payment
                    errors. From FY 1995 through FY 1998, these payment errors
                    accounted for the largest portion of OASI overpayment dollars in SSA’s
                    Stewardship report, nearly $645 million or 40 percent of the
                    overpayment dollars (see figure 1). 5 Although the error cases were
                    relatively small (3 percent), they generated high-deficiency dollars.



                            Figure 1. FY 1995 - FY 1998Stewardship Overpayment
                                            Dollars (in millions)

                                 $320.7

                                                                                  $644.4
                        $136.7




                            $229.5
                                     $10.7                 $297.3
                                                        Relationship/Dependency     Annual Earnings Test
                                      $13.7
                                                        Month of Entitlement        Age
                                                        Computations                Wages/SEI
                                                        Other




                    4
                      The prior PATF reports were Payment Accuracy Task Force: Earnings Record
                    Issue Team (SSA/OIG, September 1997); Payment Accuracy Task Force: SSI
                    Earned Income Issue Team (SSA/OIG, September 1998); and Payment Accuracy
                    Task Force-Supplemental Security Income-Unearned Income (SSA/OIG, September
                    1999), see internet site -- <http://www.ssa.gov/oig/audit1.htm>.
                    5
                     FY 1998 Title II Payment Accuracy (Stewardship) Report (Memorandum from the
                    Deputy Commissioner for Finance, Assessment and Management, October 27,
                    1999). As of FY 1998, the Stewardship report includes reviews of non-medical
                    aspects of title II Disability Insurance cases.


                                                                                                           2
FY 2000 Payment Accuracy Task Force – Title II Relationship and Dependency




                    The title II relationship and dependency payment deficiency category
                    encompasses a broad range of issues. These include, but are not
                    limited to, issues associated with out-of-wedlock children, stepchildren,
                    legally adopted children, student beneficiaries, common-law and
                    deemed marriages, and beneficiary divorce. (See Appendix C for a list
                    of the Office of Quality Assurance and Performance Assessments’
                    [OQA] categorization of relationship/dependency deficiencies.)


                    Scope and Methodology

                    To determine the extent and causes of title II relationship and
                    dependency payment errors, we gathered information from multiple
                    sources. We reviewed salient OIG, General Accounting Office, and
                    SSA reports, 6 as well as SSA initiatives related to title II relationship/
                    dependency (see Appendix D). We also reviewed the 27 deficiency
                    title II relationship/dependency cases from OQA’s FY 1997 and
                    FY 1998 Index of Dollar Accuracy (IDA) and Stewardship reviews (see
                    Appendix E).

                    To augment the limited number of IDA and Stewardship deficiency
                    cases, we used the Recovery of Overpayments and Accounting Report
                    (ROAR) system to identify records with title II relationship/dependency
                    overpayments. We selected records based on the fields: “Program
                    Service Center” (PSC) so only domestic claims were included; “Type of
                    Event” code; and an “Event Establishment Date” equal to or beyond
                    August 31, 1999 (see Appendix F). We identified a universe of 25,716
                    ROAR records. From these, we randomly selected 223 cases for
                    review.7

                    We also met with PSC and field office staff to identify potential policy,
                    procedural, operational, and/or systems problems and solutions. In the
                    Office of Central Operations in Baltimore, Maryland, the Center for
                    Program Support staff helped us identify types of relationship and
                    dependency claims that cause PSC technicians the most difficulty, and

                    6
                        The FY 1998 IDA report was not completed at the time of this review.
                    7
                      The ROAR sample was limited in that only overpayment records were identified.
                    The extract was used to provide additional insight into the extent of overpayments
                    that occur due to either systems or non-reporting problems.


                                                                                                         3
FY 2000 Payment Accuracy Task Force – Title II Relationship and Dependency




                    the staff provided suggestions for minimizing errors. We also met with
                    10 reconsideration specialists, 5 claims authorizers, and 5 benefit
                    authorizers in the Mid-Atlantic PSC in Philadelphia, Pennsylvania.

                    During May and June 2000, we visited 12 field offices in Maryland,
                    Nevada and Florida to better understand the point-of-service process
                    and identify any service barriers or best practices related to title II
                    relationship/dependency case development. 8 We held individual and
                    group discussions with 10 operations supervisors and/or management
                    support staff, 120 claims representatives (CRs) and 56 service
                    representatives (SR).

                    For a more comprehensive understanding of title II relationship/
                    dependency policy, procedures, operations, systems, and program
                    administration, we spoke with over 20 key experts from various SSA
                    Headquarters components (see Appendix G). The PATF Steering
                    Committee representatives and the members of the PATF issue team
                    also provided expert input about title II relationship/dependency
                    payment errors and any related SSA activities underway to address
                    these problems.

                    8
                      We selected two field offices based on their proximity to Headquarters and served
                    as pre-test sites. The other field offices were selected based on their dual ranking in
                    the top 50 offices with the most Retirement and Survivors Insurance non-disability
                    and Disability Insurance claims receipts. For economy, we added field offices that
                    were near the top 50. Even so, the additional offices still ranked within the top 175 of
                    1300 field offices for Retirement and Survivors Insurance or Disability Insurance
                    claims receipts.




                                                                                                           4
FY 2000 Payment Accuracy Task Force – Title II Relationship and Dependency




Findings and Recommendations
                      Our findings and recommendations focused on title II relationship and
                      dependency payment errors involving child beneficiaries. Our case
                      folder reviews of FY 1997 – FY 1998 IDA and Stewardship payment
                      errors and ROAR records, combined with our field office and PSC staff
                      interviews, pointed us in this direction.9 Nearly two-thirds of the FY
                      1997 – FY 1998 IDA and Stewardship cases we reviewed involved
                      child-related payment processing errors, accounting for an estimated
                      projection of over $208 million deficiency dollars (see Appendix E).10
                      Field office and PSC staff also indicated that claims involving
                      stepchildren and out-of-wedlock children were their most difficult to
                      process. As such, we are recommending the following procedural and
                      operational changes to help improve the accuracy of payment
                      processing for title II relationship/dependency cases involving child
                      beneficiaries.



                      Improving Ways of Determining Out-of-Wedlock Child
                      Relationships
                      Out-of-wedlock children accounted for the largest number of

                      FY 1997 - FY 1998 IDA title II relationship/dependency deficiency

                      cases, representing an estimated projection of almost $40 million

                      deficiency dollars. SSA has fixed protocols based on precise

                      requirements of the Social Security Act that must be followed when


                      9
                        Although divorce or marriage of a spouse error cases accounted for

                      40 percent of the FY 1997 – FY 1998 IDA and Stewardship title II relationship/

                      dependency cases and 21 percent of our ROAR overpayment cases, the deficiencies

                      were primarily caused by beneficiary failure to report and not field office processing

                      errors. Very few of the field office or PSC staff we interviewed mentioned having

                      problems with processing title II relationship/dependency cases involving marital

                      relationships. There is little we can recommend to correct divorce or marriage of a

                      spouse payment errors beyond reinforcing reporting responsibilities and a Office of

                      Program Benefits and OIG effort to examine the feasibility of conducting States’

                      Bureaus of Vital Statistics data matches to detect unreported marriages.

                      10
                        This estimated projection is conservative since it does not include

                      children who could be counted among the payment error cases involving marriage.

                      Note: Due to the small sample size, it is difficult to make reliable projections.


                                                                                                           5
FY 2000 Payment Accuracy Task Force – Title II Relationship and Dependency




                      developing relationship. For out-of-wedlock children, CRs must
                      consult State intestacy law applicable to the primary numberholder’s
                      (NH’s) State of residence (domicile). 11 CRs must be cognizant of the
                      wide variations found among States’ intestacy Laws. Our review of the
                      FY 1997 – FY 1998 IDA and Stewardship relationship/dependency
                      cases showed that out-of-wedlock children were being disallowed
                      without consideration of applicable State intestacy law.


                      �	 Revising Form SSA-2519 (Child Relationship Statement) to
                         Consider State Law when Determining Entitlement for Out-of-
                         Wedlock Children

                           Form SSA-2519 (Child Relationship Statement) is required in all
                           disallowed child cases where the relationship to the primary NH is
                           not established for an out-of-wedlock child. CRs are to assist the
                           claimants in completing the form and to follow-up on any
                           information needed to establish a child’s entitlement. The form
                           documents the potential existence of evidence that the primary NH
                           acknowledged a parent-child relationship.

                           However, the form only assists CRs in developing child
                           relationships under section 216(H)(3) 12 of Federal law. It does not
                           provide guidelines for developing and documenting out-of-wedlock
                           children under State intestacy law, which must be done before a
                           disallowance can be considered proper.

                           To help ensure this type of payment error is reduced, we believe
                           that Form SSA-2519 should be modified to alert CRs about
                           considering both Federal and State laws for cases involving out-of-
                           wedlock children. Over one-half (51 percent) of the CRs we
                           interviewed said it would be beneficial to modify the form to remind

                      11
                        Where the child does not meet the provisions of State intestacy law, the
                      adjudicator must consider the provisions of the Federal deemed child provision
                      (Social Security Act, section 216 [(h)][(3)]).
                      12
                        Social Security Act, section 216 (h)(3] states the NH must be decreed by a court to
                      be the child’s biological parent, be court ordered to contribute to a child’s support
                      because the child is his/her son or daughter, have acknowledged in writing that the
                      child is his/her son or daughter, or be shown by evidence satisfactory to the
                      Commissioner of Social Security to be the child’s biological parent and must be living
                      with or contributing to the child’s support.


                                                                                                           6
FY 2000 Payment Accuracy Task Force – Title II Relationship and Dependency




                           them to consider State intestacy law before disallowing an out-of-
                           wedlock child.13

                 Recommendation 1

                           We recommend adding the following wording to Form SSA-
                           2519 to help CRs develop relationships for out-of-
                           wedlock children:

                           �   “State of domicile:”

                           �   “When considering the status of an out-of-wedlock child for
                               entitlement, a child cannot be disallowed until applicable
                               State intestacy law is considered.” 14


                      �	 Providing Additional Training to Emphasize Use of State
                         Intestacy Law

                           An Office of Retirement and Survivors Insurance (ORSI) report
                           found that 83 percent of disallowance cases involving State
                           intestacy law were processed incorrectly. 15 There was no
                           indication that State intestacy law had been considered. The report
                           suggests that the high incidence of incorrect cases could be an
                           indicator that adjudicators are unaware of the requirement to use
                           State intestacy law before disallowing a claim.

                           During our discussions with PSC reconsideration reviewers, we
                           found they believed that CRs do not always consider State

                      13
                        Social Security Act, section 216(h)(2)(A) requires use of State intestacy law that is
                      applied by the State courts in which the worker was domiciled at the time of the
                      application or at the time of death.
                      14
                         State intestacy laws specify the requirements for establishing a parent-child
                      relationship for inheritance purposes where the deceased NH died without leaving a
                      will. As directed by the Social Security Act, SSA applies State intestacy law to
                      establish a parent-child relationship in life and death claims.
                      15
                       Relationship and Disallowance Study, Division of Entitlement and Program
                      Management and Studies Staff, ORSI, March 1994.



                                                                                                                7
FY 2000 Payment Accuracy Task Force – Title II Relationship and Dependency




                           intestacy laws before denying the claim of an out-of-wedlock child.
                           Their opinion was based on the number of initial decisions made by
                           CRs that they are overturning.

                           ORSI’s findings and reconsideration reviewers’ perceptions are
                           consistent with what we heard from CRs. The CRs reported
                           receiving insufficient training about considering State intestacy law
                           before disallowing a claim. Almost 60 percent of the CRs could not
                           recall being provided any training on processing out-of-wedlock
                           child claims using State intestacy laws. Additionally, during initial
                           CR training, there is only one statement about State intestacy laws
                           contained in the training materials.16

                 Recommendation 2

                           �	 Place more emphasis on initial CR training and providing
                              subsequent refresher training to emphasize consideration
                              of State intestacy laws before disallowing a claim for an
                              out-of-wedlock child.


                      Improving Ways of Determining Stepchild Dependency
                      As of July 1996, for a stepchild to become initially entitled, s/he must
                      receive at least one-half support from the primary NH. 17 According to
                      our review of FY 1997 – FY 1998 IDA and Stewardship title II
                      relationship/dependency cases, incorrect determination of one-half
                      support for stepchildren accounted for a n estimated projection of over
                      $12 million deficiency dollars.




                      16
                         Title II Claims Representative Basic Training Course: “CAUTION: You may not
                      disallow benefits for an illegitimate child solely because he/she does not qualify
                      under section 216(h)(3). You must develop the child’s status under State law.”
                      17
                        Program Operations Manual System GN 00306.232 Dependency Requirements –
                      Stepchild. Also, The Contract With America Advancement Act of 1996 changed the
                      dependency requirements for a stepchild. Before the law, a child had to “live with” or
                      receive one-half support from the NH to be dependent.


                                                                                                           8
FY 2000 Payment Accuracy Task Force – Title II Relationship and Dependency




                      �	 Revising Form SSA-783 (Statement Regarding Contributions)
                         and Developing Supplemental Tools for One-Half Support
                         Computation

                           During our site visit discussions, 80 percent of the CRs and two-
                           thirds of the reconsideration reviewers said that one-half support
                           claims were their most difficult to process relative to other types of
                           relationship/dependency claims. The most frequent problems CRs
                           mentioned in processing relationship/dependency claims were
                           development and computation of one-half support.

                           Form SSA-783 (Statement Regarding Contributions) is used to
                           determine one-half support. The form captures such information as
                           persons or agencies contributing to the stepchild’s support, the
                           stepchild’s wages or income, and whether or not the stepchild lives
                           with more than one parent. Either a pooled or non-pooled fund
                           method is used to calculate one-half support.18 SSA procedures
                           prescribe that, unless excepted, the pooled fund method be applied
                           first because it is less labor intensive.19 However, to use the pooled
                           fund method, certain information must be known, e.g., the number
                           of persons living in a household and the amount of their income.
                           This information is not captured on Form SSA-783.

                 Recommendations 3 & 4

                           To assist in more efficient and accurate development and
                           calculation of one-half support for stepchildren, we
                           recommend:

                           �	 Modify Form SSA-783 to include the number of individuals
                              in a household and their income.

                           �	 Develop supplemental tool(s) to help with one-half support
                              computation, e.g., an interactive computation screen
                      18
                        The pooled fund method assumes that all income coming into a household is co­
                      mingled and that everyone shares equally in the funds used for support.
                      19
                        If use of the pooled fund method results in one-half support being missed by a
                      narrow margin, the non-pooled fund method is used. The non-pooled fund method
                      calculates the actual cost of the stepchild’s support and the NH’s actual contributions
                      towards that support.



                                                                                                            9
FY 2000 Payment Accuracy Task Force – Title II Relationship and Dependency




                               supported by the Interactive Computation Facility,20 a
                               worksheet for manual computation, and/or a desk guide.

                      �	 Expanding Program Operations Manual System (POMS) to
                         Improve Instructions on Determining One-Half Support for
                         Stepchildren

                           In 1996, ORSI issued a program circular on determining one-half
                           support for stepchildren.21 The program circular has a destruction
                           date of September 30, 1997 and is not available in POMS on CD-
                           ROM. However, claims authorizers in the Office of Central
                           Operations have been informed that the procedures are still valid.

                           Current POMS procedures on stepchild dependency requirements
                           refer technicians to POMS RS 1301.010 for guidance on how to
                           determine one-half support.22 However, the transmittal for that
                           chapter of POMS has not been updated since April 1990, preceding
                           the date of the ORSI program circular.

                 Recommendation 5

                           �	 Revise POMS to include information from the September
                              1996 ORSI program circular on determining one-half
                              support for stepchildren.




                      20
                        An interactive title II computation screen already exits. We are suggesting the
                      capability to make one-half support computations be added to this site.
                      21
                        Determining One-Half Support for Stepchildren, ORSI Program Circular,
                      September 1996.
                      22
                        POMS GN 00306.232 Dependency Requirements – Stepchild and RS 01301.010
                      One-Half Support – General.



                                                                                                          10
FY 2000 Payment Accuracy Task Force – Title II Relationship and Dependency




                      Emphasizing Use of Shared Process and the Report of
                      Contact Screen to Document Child Relationship
                      Disallowances
                      POMS GN 00306.001E requires an adjudicator to document every
                      decision that disallows a child for failure to establish a parent-child
                      relationship. Documentation should include: the specific means used
                      to meet the relationship requirement; the specific evidence requested;
                      the efforts made to obtain information; and, if applicable, why the
                      information was not obtained.23 This written documentation constitutes
                      an informal special determination.

                      POMS GN 00301.286 requires the adjudicator to electronically store
                      evidentiary documents submitted in a claim by recording identifying
                      data about the documents on the evidence screen from the Shared
                      Process menu. An SSA employee can, at any time, use the evidence
                      screen to determine whether an issue has already been proven and
                      how. The data also provide an audit trail.

                      During our discussions with reconsideration reviewers, we were
                      repeatedly told that identifying data about evidentiary documents are
                      not recorded on Shared Process, but rather are recorded on the
                      Remarks screen or the evidentiary document is certified and placed in
                      a case folder. For some cases, we were told, the identifying
                      information about evidentiary documents is not being recorded at all.

                      Often, the reconsideration reviewers are working with case folders that
                      do not contain required documentation and, as a result, they have to
                      either call the claims representative or re-contact the claimant for the
                      same evidence. Even when the Remarks screen is used to document
                      evidence, reconsideration reviewers said it does not provide the same
                      level of detailed information as Shared Process would. Additionally,
                      information placed on the Remarks screen can be overwritten or
                      erased.24


                      23
                        POMS GN 00306.001E – Parent Child Relationship General (Determining Status
                      as a Child).

                      24
                         The use of Shared Process or other data collection systems would also coincide
                      with the requirements of the Government Paperwork Elimination Act of 1998.


                                                                                                          11
FY 2000 Payment Accuracy Task Force – Title II Relationship and Dependency




                      An ORSI study of relationship disallowance supports reconsideration
                      reviewers concerns about special determinations and Reports of
                      Contact. The study found that special determinations and report of
                      contact information were frequently placed in case folders rather than
                      noted on systems screens. 25 The study recommended that a reminder
                      be sent to field offices to record all special determinations and report of
                      contact information on the Modernized Claims System (MCS)26 Report
                      of Contact (RPOC) screen rather than placed in a case folder. This is
                      particularly important to reconsideration reviewers because the RPOC
                      screen allows them to directly access information.

                      However, what we heard during our field office discussions
                      contradicted the reconsideration reviewers’ concerns. Eighty-two
                      percent of the CRs reported using Shared Process to record identifying
                      data about evidentiary documents. Also, over half of the management
                      support specialists and/or operations supervisors said they require
                      their staffs to use Shared Process. Additionally, 93 percent of the CRs
                      said they always use the MCS RPOC screen to document report of
                      contact information and special determinations.

                 Recommendation 6

                      �	 Stress the importance of field office staff using Shared Process
                         to document evidence and the RPOC screen to document
                         special determinations so reconsideration reviewers have
                         needed information to process requests for reconsideration of
                         an initial determination.


                      Increasing Awareness that Legal Precedent Opinions
                      Are Available in POMS on CD-ROM
                      As of July 1999, a compendium of Regional Chief Counsels’ (RCC)
                      legal precedent opinions on the application of State and District of
                      Columbia law became available in POMS on CD-ROM, and it is


                      25
                           Relationship Disallowance Study, ORSI, Internal Document, March 1994.
                      26
                           See Appendix H for title II relationship/dependency MCS screens.



                                                                                                   12
FY 2000 Payment Accuracy Task Force – Title II Relationship and Dependency




                      updated monthly. 27 However, 98 percent of the CRs and 9 of 10
                      reconsideration reviewers told us they were unaware the data base
                      existed, saying they had never heard of it.

                      The State legal precedent opinions in POMS on CD-ROM provides all
                      adjudicators with one, easily accessible, centrally maintained source
                      for legal precedent opinions and a streamlined process for requesting
                      new opinions.28 The ability to update the data base each month
                      provides immediate access to the most current advice on the
                      application of State and District of Columbia law. This ensures
                      claimants consistent, equitable treatment because adjudicators can
                      more readily consider and apply the most current version of State law.

                 Recommendation 7

                     �	 Distribute a program circular or other form of communication
                        reminding field offices and PSCs that legal precedent opinions
                        on State and District of Columbia law are available in POMS on
                        CD-ROM.


                      Reinforcing Reporting Responsibilities
                      SSA relies on claimants to self-report any changes that might affect the
                      amount and continued receipt of benefit payments. Claimants are
                      informed of their reporting responsibilities at the initial claim interview,
                      as well as through a fact sheet, Social Security Snapshot; the MCS
                      application that requires a claimant’s signature showing agreement to


                      27
                         The Office of Program Benefits was instrumental in developing the electronic
                      process to access a compendium of legal precedents. Legal precedent opinions are
                      legal advice that has been issued by the RCC on the application of State law, or
                      Office of General Counsel (OGC) on DC law or foreign claims, in a coverage or title II
                      or title XVI claim-related issue, and is designated for national distribution by the
                      responsible Headquarters’ Policy component (also, see POMS GN 01010.800 ff.
                      Legal Precedent Opinions).
                      28
                         The legal precedent opinions are available in part 15 (title II) and part 16 (title XVI)
                      of the POMS on SSA PUBS on CD-ROM. These chapters are the approved sources
                      for legal precedent opinions for use in resolving coverage and title II and title XVI
                      claims-related issues.



                                                                                                               13
FY 2000 Payment Accuracy Task Force – Title II Relationship and Dependency




                      report events; the Notice of Award; periodic check stuffers; and media
                      announcements and articles.

                      Even with the various ways SSA uses to inform claimants of their
                      reporting responsibilities, almost two-thirds of the CRs told us
                      claimants still assert they do not know they are supposed to self-report
                      changes. Non-reporting still occurs despite the fact that CRs told us
                      they advise claimants of their reporting responsibilities.

                      CRs are required to manually attach an instruction sheet with reporting
                      responsibilities to the MCS claims receipt before giving it to the
                      claimant. The instruction sheets are numbered to correspond with the
                      appropriate claim type.29 Since the claims receipt automatically prints
                      out as the last page(s) of the application, we believe this is an
                      opportune place to list reporting responsibilities, including those related
                      to title II relationship/ dependency events. This method would provide
                      the claimant with a visual, as well as hard copy, reminder.

                 Recommendation 8

                      �	 Reinforce reporting responsibilities either by modifying the
                         MCS screen and application path to output and print the
                         “claims type specific” reporting responsibilities on the
                         application receipt itself or by generating an alert on the
                         Developmental Worksheet as a reminder to print the reporting
                         responsibilities. This would eliminate the need to revisit the
                         claims path for additional printing.


                      Studying the Efficacy of Mailing Recontact Forms to
                      Children Ages 15 to 17 to Detect Unreported Marriages
                      SSA’s Beneficiary Recontact Program was implemented in 1993 to
                      detect unreported marriages, reports of no child in-care situations for
                      young widow/widowers, and unreported marriages for young children
                      ages 15 to17. Being unmarried is a requirement for entitlement to
                      child’s benefits.

                      29
                        For example, an applicant filing for retirement benefits will be given reporting
                      responsibilities on Form SSA-1 INST.



                                                                                                           14
FY 2000 Payment Accuracy Task Force – Title II Relationship and Dependency




                      Before 1996, there was a question on a representative payee
                      accounting form that asked about a child’s marital status. In 1996,
                      children ages 15 to 17 began receiving mailed recontact forms to
                      report their marital status. Seventy thousand mailers (840,000/year)
                      were distributed per month to this age group in calendar year 1999,
                      detecting only 522 marriages. Of those, only 49 were for children age
                      15.30 Currently, recipients use about 163,000 burden hours to
                      complete and return Form 1588E (Children in Direct Pay or Young
                      Widow/Widower with a Child) and 835,000 burden hours for Form
                      1587 (Children Age 15 to17).31

                      Additionally, 98 percent of the SRs told us they never or very seldom
                      terminate benefits for 15 or 16-year-olds due to marriage. However,
                      there were several instances in which SRs said they had referred an
                      incorrect unreported marriage termination to a PSC so that a child
                      could be reinstated. The incorrect determination was caused by failure
                      to return Form SSA-1587.

                      The current process for identifying marital status of children ages
                      15 to17 appears to be neither cost-effective nor efficient. SSA pays
                      approximately $375,000 per year for printing and mailing the recontact
                      forms; but, in FY 1999, the mailings only identified about $470,000 in
                      undetected overpayments. When offset against operational costs, the
                      return-on-investment becomes negligible.

                 Recommendation 9

                      �	 Conduct a study to determine the feasibility of continuing to
                         send Beneficiary Recontact Program mailers to children ages
                         15 to 17, and to discern whether there are more efficacious
                         ways to detect unreported marriages for this age group.




                      30
                        There are no available data to determine how many of the 49 terminations were
                      subsequently reinstated.
                      31
                        Burden hours are the amount of time it takes the public to complete government
                      business, e.g., filling out forms, being interviewed.


                                                                                                         15
FY 2000 Payment Accuracy Task Force – Title II Relationship and Dependency




Recap of Recommendations
                      Our findings and recommendations focus on title II relationship and
                      dependency payment processing errors involving child beneficiaries.
                      Our case folder reviews of FY 1997 – FY 1998 IDA and Stewardship
                      payment errors and ROAR records, combined with our field office and
                      PSC staff interviews, pointed us in this direction. Our
                      recommendations for procedural and operational improvements are
                      recapped below.

                      �   Improving Ways to Determine Out-of-Wedlock Child Relationships

                          �	 Revising Form SSA-2519 (Child Relationship Statement) to
                             Consider State Law when Determining Entitlement for Out-of-
                             Wedlock Children

                               Recommendation 1 – Add the following wording to Form
                               SSA-2519 to help CRs develop relationships for out-of-wedlock
                               children: “State of domicile:” and “When considering the status
                               of an out-of-wedlock child for entitlement, a child cannot be
                               disallowed until applicable State intestacy law is considered.”

                          �	 Providing Additional Training to Emphasize Use of State
                             Intestacy Law

                               Recommendation 2 – Place more emphasis on initial CR
                               training and providing subsequent refresher training to
                               emphasize consideration of State intestacy laws before
                               disallowing a claim for an out-of-wedlock child.

                      �   Improving Ways of Determining Stepchild Dependency

                          �	 Revising Form SSA-783 (Statement Regarding
                             Contributions) and Developing Supplemental Tools for One-Half
                             Support Computation

                               Recommendation 3 – Modify Form SSA-783 to include the
                               number of individuals in a household and their income.




                                                                                             16
FY 2000 Payment Accuracy Task Force – Title II Relationship and Dependency




                               Recommendation 4 – Develop supplemental tool(s) to help
                               with one-half support computation, e.g., an interactive
                               computation screen supported by the Interactive Computation
                               Facility, a worksheet for manual computation, and/or a desk
                               guide.

                           �	 Expanding POMS to Improve Instructions on Determining One-
                              Half Support for Stepchildren

                               Recommendation 5 – Revise POMS to include the September
                               1996 ORSI program circular on determining one-half support for
                               stepchildren.

                      �	   Emphasizing Use of Shared Process and the Report of Contact
                           Screen to Document Child Relationship Disallowances

                               Recommendation 6 – Stress the importance of field office staff
                               using Shared Process to document evidence and the Report of
                               Contact screen to document special determinations so that
                               reconsideration reviewers have needed information to process
                               requests for reconsideration of an initial determination.

                      �	   Increasing Awareness that Legal Precedent Opinions Are Available
                           in POMS on CD-ROM

                               Recommendation 7 – Distribute a program circular or other
                               form of communication to remind field offices and PSCs that
                               legal precedent opinions on State and District of Columbia law
                               are available in POMS on CD-ROM.

                      �    Reinforcing Reporting Responsibilities

                               Recommendation 8 – Reinforce reporting responsibilities
                               either by modifying the MCS screen and application path to
                               output and print the “claims type specific” reporting
                               responsibilities on the application receipt itself or by generating
                               an alert on the Developmental Worksheet as a reminder to print
                               the reporting responsibilities. This would eliminate the need to
                               revisit the claims path for additional printing.




                                                                                                17
FY 2000 Payment Accuracy Task Force – Title II Relationship and Dependency




                      �	   Studying the Efficacy of Mailing Recontact Forms to Children
                           Ages 15 to 17 to Detect Unreported Marriages

                               Recommendation 9 – Conduct a study to determine the
                               feasibility of continuing to send Beneficiary Recontact Program
                               mailers to children ages 15 to 17, and to discern whether there
                               are more efficacious ways to detect unreported marriages for
                               this age group.




                                                                                             18
FY 2000 Payment Accuracy Task Force – Title II Relationship and Dependency




Other Cross-Cutting Payment Accuracy Issues
                      We identified four overarching payment accuracy issues during our
                      review. Three of these issues have continued to resurface since
                      PATF’s inception in 1996. We believe it is incumbent on us to mention
                      all four since they will continue to impact payment accuracy now, as
                      well as in the future.

                      �    Reassessing Reporting Responsibilities
                           Both title II and title XVI payment accuracy depends on timely and
                           accurate disclosure of information to determine initial and continued
                           program eligibility and benefit amounts. In all four PATF reports,
                           we have made recommendations and suggestions on how to
                           improve the current process that relies heavily on self-reported
                           information. However, the problem still persists about how SSA
                           can ensure beneficiaries clearly understand, remember, and follow
                           through with their reporting responsibilities so neither an incorrect
                           eligibility decision nor incorrect benefit payment are made. SSA
                           has acknowledged the reporting process needs to be reassessed
                           by taking steps to build new models for student reporting and for
                           title XVI. We believe it is time to do the same for title II.

                 Suggestion

                           We strongly suggest SSA convene a workgroup to look at building
                           and implementing a new title II reporting process model.


                      �	   Providing Incentives to Ensure Staff Receive
                           Ongoing Training
                           During this and our prior reviews, we found the amount of training
                           staff receives varies widely among offices. Some provide training
                           only when there are policy/procedural changes; others provide
                           training as frequently as once a week. Workload demands appear
                           to be one of the primary determinates of how much training is
                           provided. Offices only receive work credits for production, so there
                           is constant pressure to meet processing times. Office managers


                                                                                              19
FY 2000 Payment Accuracy Task Force – Title II Relationship and Dependency




                          have to decide the most efficient use of their resources and the
                          time needed to meet public demands. As reported by the Social
                          Security Advisory Board, “…ongoing training is essential to building
                          and maintaining the knowledge and skills employees need…Good
                          training takes time, but time is in short supply as a result of
                          downsizing and the struggle to keep up with daily workloads.”32

                          For example, we noted that one of the areas that consistently
                          requires supplemental training is how to efficiently manipulate
                          POMS on CD-ROM. During this review, two-thirds of field office
                          staff reported they needed refresher training on how to retrieve
                          information from the POMS on CD-ROM. Over one-third of field
                          office staff said they rely on co-workers rather than POMS on
                          CD-ROM when they need clarifications on policies/procedures to
                          process a claim. This provides further evidence that POMS on
                          CD-ROM is not being fully used. We were repeatedly told that
                          POMS on CD-ROM is difficult to use; in particular, it is difficult to
                          quickly search for information.

                 Suggestions

                          We offer two suggestions to help address these issues. We
                          strongly urge SSA to convene a workgroup to discuss potential
                          incentives for managers to provide time for ongoing training for their
                          employees. We believe if some form of workload credit is given for
                          training, more offices will stress training.

                          With respect to supplemental POMS on CD-ROM training, we
                          suggest all operating component staff be given the opportunity to
                          receive some type of refresher training. Additionally, we think all
                          offices should have at least one copy of the reference book, SSA
                          Text Retrieval Application, and should be informed about the
                          POMS on CD-ROM hotline.33




                          32
                             How the Social Security Administration Can Improve Its Service to the Public,
                          Social Security Advisory Board, September 1999.
                          33
                             POMS CD-ROM Hotline Internet address is <POMS.Hotline@ssa.gov>;
                          telephone number, (410) 965-5192. SSA’s Digital Library, CD-ROM website
                          page is http://library.ba.ssa.gov/library/research.htm.


                                                                                                         20
FY 2000 Payment Accuracy Task Force – Title II Relationship and Dependency




                      �   Supplementing Interactive Video Training
                          SSA is relying more than ever on systems technology to provide
                          training to staff, e.g., Interactive Video Training (IVT) because it
                          allows simultaneous national broadcasting to ensure uniform
                          training. However, 90 percent of the interviewees said IVT was not
                          their preferred training method, but would rather have face-to-face
                          training. This latter mode of delivery allows for immediate feedback
                          to questions and for tailoring the training to specific office needs.
                          We also heard concerns about the broadcast panels’ expertise and
                          delivery skills. These concerns were also articulated during our
                          FY 1999 PATF review.

                          We understand that field offices have different training needs
                          depending on the segment of the population they serve. Also, we
                          understand that field offices will have case specific issues that they
                          want addressed and that IVT is not the forum for this kind of
                          interchange because of the level of detail and number of policies
                          that can be involved in any one case. These variations could
                          impact the perception among some field personnel that panel
                          expertise is lacking. Further, it is unrealistic to expect that
                          individuals whose job skill is policy application will necessarily be
                          skilled in delivery as well.


                 Suggestion

                          Accepting the limitations of IVT training and that field office training
                          needs to continue to exist, we believe that SSA needs to take a
                          proactive approach and seek ways to supplement IVT with on-site
                          face-to-face training. We suggest that field offices routinely be
                          canvassed on which policies they want refresher training, and
                          follow-up those requests with on-site training conducted by
                          employees skilled in both policy application and training delivery.
                          The pool of trainers could be drawn from employee volunteers who
                          have incentive and the skills to meet the identified training needs.
                          In addition, we suggest an evaluation be conducted of IVT delivery
                          to maximize its effectiveness.




                                                                                                21
FY 2000 Payment Accuracy Task Force – Title II Relationship and Dependency




                      �     Obtaining “Proof of Age” Needed for Entitlement
                            Claimants filing an initial title II application are given or sent a notice
                            to remind them of their appointment and what documents are
                            needed. The appointment notice specifically tells the claimant the
                            type of claim interview that is scheduled, the date and time of their
                            appointment, the type of appointment (in-office or telephone), and
                            the necessary proofs needed to establish their entitlement.

                            During our interviews with field office staff, it was brought to our
                            attention that the notices only tell the claimant to provide “proof of
                            age.” It does not tell what is acceptable as preferred evidence for
                            “proof of age,” i.e., a public record of birth or a religious record
                            established before the claimant obtained age 5.34 The field offices
                            are encountering problems because the claimants are submitting
                            such evidence as driver licenses and voter registration cards for
                            proof of age. These are not preferred, but rather secondary proofs.
                            This situation causes follow-up visits or phone calls. The lack of
                            clarification further exacerbates the situation when the claimant is
                            filing out-of-state and does not have the preferred evidence readily
                            available.

                 Suggestion

                            We spoke with the Office of Program Benefits and alerted them to
                            this problem. We suggested the appointment notices be modified
                            to read “Original birth certificate, if available, or other proof of birth.”
                            This language is already used for persons who are accessing the
                            Internet Retirement Insurance Benefit application process. To be
                            consistent, the same language should be used on the title II
                            appointment notices as well.




                      34
                           POMS GN 00302.052 Preferred Evidence of Age




                                                                                                      22
Appendices

Appendix A

Payment Accuracy Task Force Steering Committee

Steven L. Schaeffer, Assistant Inspector General for Audit,
    Office of the Inspector General, Chairperson
Thomas Evans, Associate Commissioner, Office of Quality
    Assurance and Performance Assessment, Office of the Deputy
    Commissioner for Finance, Assessment and Management
 Ernestine Durham, Director, Division of Operations Management,
    Office of Public Service and Operations Support, Office of the
    Deputy Commissioner for Operations
Steve Aprile, Director, Office of Workforce Analysis, Office of the
    Deputy Commissioner for Human Resources
Fritz Streckewald, Office of Program Benefits, Office of the Deputy
    Commissioner for Disability and Income Security Programs
Mark Nadel, Associate Commissioner, Office of Disability and
    Income Assistance Policy, Office of Policy
Vince Sanudo, Deputy Associate Commissioner, Office of
    Communications and Planning Technology, Office of the Deputy
    Commissioner for Communications
Pete Herrera, Associate Commissioner, Office of Systems
    Requirements, Office of the Deputy Commissioner for Systems
Virginia Baker, Social Insurance Specialist for Old-Age and Survivors
    Insurance Benefits, representing the Office of the Deputy
    Commissioner for Legislation and Congressional Affairs
Laraine Williams, Analyst, representing the Office of the
    Commissioner




Several of the Steering Committee members listed above were
designated as representatives of their respective Associate
Commissioners or their component’s equivalent to the Associate
Commissioner.




                                                                   A-1
Appendix B


Fiscal Year 2000 Payment Accuracy Issue Team
�    Office of the Inspector General/Office of Audit
     Carolyn Neuwirth, Deputy Director

     Evan Buckingham, Senior Evaluator and Project Leader

     Janet Stein-Pezza, Program Analyst


�	   Deputy Commissioner for Operations/
     Houston, Texas Field Office
     Shirley Clack, Management Support Specialist

�	   Deputy Commissioner for Operations/
     Gadsden, Alabama Field Office
     Reggie Jenkins, Claims Representative

�	   Deputy Commissioner for Finance, Assessment and
     Management/Office of Quality Assurance and Performance
     Assessment
     Naomi Keys, Social Insurance Specialist

�	   Deputy Commissioner for Disability and Income
     Support Programs/Office of Program Benefits Policy
     Cynnie Mages, Policy Analyst

�	   Deputy Commissioner for Human Resources/Office of
     Workforce Analysis
     Don Fuller, Management Analyst




                                                             B-1
Appendix C


Types of Title II Relationship/Dependency
Deficiencies
Valid Ceremonial Marriage

Deemed Marriage

Common-Law Marriage

Duration of Marriage Requirement

10/20 Year Requirement for Divorced Spouses

Other Marriage Requirement

Beneficiary Divorced from Number Holder

Beneficiary Married


Other Relationship Requirements

Natural, Adoptive, or Step-parent Relationship

Natural, Legitimate Child Relationship

Illegitimate Child with Inheritance Rights or 216(H)(3)

Legally Adopted Child

Step-child Relationship

Other Child Relationship Requirement


Support/Dependency/Child-in Care Requirements

One-half Support for Parent
Support Requirement for Child
Child-in-Care

School Attendance

Full-time Attendance
Educational Institution




                                                           C-1
Appendix D


Title II Relationship/ Dependency-Related Initiatives
We found four initiatives SSA has in place to improve the accuracy of
title II relationship and dependency payments. These include:

Beneficiary Recontact Report

The Beneficiary Recontact Program was initiated in 1993 to detect
unreported terminating events. Before the program was implemented,
SSA relied on voluntary reports from claimants regarding suspension
and termination events.

Beneficiary recontact report forms are mailed annually to young
widow/widowers to detect unreported marriages and no child in-care
situations and to children ages 15 to17 in direct pay or with
representative payees to detect unreported marriages.

Marriage and Divorce Computer Matching Pilot

The Office of Program Benefits (OPB) is working with the Office of the
Inspector General and the Office of the Actuary on a pilot to match the
marriage records of four States against SSA payment records to detect
unreported marriages. The study will determine the suitability of the
four States’ records for electronic matching.

Student Workgroup

In 1998, an intercomponent workgroup was formed to improve the
student enforcement process. The workgroup was formed in response
to an Office of Quality Assurance and Performance Assessment (OQA)
report that revealed student benefits have the lowest net accuracy rate
of any of the post-entitlement workloads.1 OQA concluded the low
accuracy rate for student benefits resulted from the complexity of the
program and recommended elimination of most of the reporting
process that follows initial entitlement. In June 2000, Program


1
 Office of Program and Integrity Reviews Evaluation of Post-entitlement (PE)
Changes, September 12, 1994.




                                                                               D-1
Appendix D (continued)

Operations Manual Systems (POMS) procedures were issued that
require a personal contact with the student before the adjudication of
the Form SSA-1372-F4 (Student’s Statement Regarding School
Attendance).2

In addition, SSA plans to revise the student enforcement process to
make it more efficient. The revised process requires a new version of
Form SSA-1387 (Advance Notice of Termination of Child's Benefits) be
mailed to the representative payee 3 months before the child's
eighteenth birthday. Simultaneously, a revised Form SSA-1372 will be
sent to the student for completion and school certification. The school
maintains a tear-off portion of the form and uses it to notify SSA of any
changes in attendance. Before processing Form SSA-1372 and
awarding benefits, SSA will inform the student of his/her reporting
responsibilities. This new process is estimated by OQA to save
150 work years by eliminating a back-end verification process that was
established when SSA paid college students. It also puts more
emphasis on verifying school attendance before awarding benefits.

POMS on Policy Net

The Office of Policy and Technology (OPMT) is placing POMS on
Policy Net. Users will have one central data base with access not only
to POMS but also all Regional and Program Service Center
supplements and Court decisions. Also, since Policy Net is accessed
through the Internet, POMS can be updated instantly. This virtual
process eliminates the lag time usually involved in updates. Currently,
Office of Policy and Technology is conducting a pilot in 10 field offices
to obtain user feedback.




2
    POMS RS 00205 TN13 -- Student Benefits, effective date 6-28-2000.




                                                                        D-2
APPENDIX E


Title II Relationship/ Dependency Payment Deficiency Dollars

Fiscal Year 1997 Index of Dollar Accuracy Cases
                                                                                            Weighted
 Type of Deficiency        Retro $          Current $     Future $*        Case Weight      Total $
 0530                                           (u) 227         34,050              31.4          1,076,786
 0530                            (o) 20         (o) 307         46,050             768.6        35,646,179
 0530                         (u) 6,310       (u) 1,235          185,250            32.8         6,323,676
 0535                         (u) 1,635         (u) 230           34,500            27.6         1,003,674
 0715                         (o) 1,960                                            761.9         1,493,324
 0720                           (u) 298                                             17.2             5,126
 0720                         (u) 4,101         (u) 641           96,150            31.5         3,178,097
 0720                           (u) 696         (u) 174                             31.5            27,405
 0720                         (u) 1,544         (u) 472           70,800            29.1         2,118,945
 0720                         (u) 1,122         (u) 561                             27.7            46,619
                  Totals       $17,686          $3,847         $466,800          1,759.3       $50,919,831
Code 0530 – 10/20 year requirement for divorced spouse

Code 0535 – Other Marriage Requirement

Code 0715 – Natural Legitimate Child Relationship

Code 0720 – Illegitimate Child With Inheritance Rights or 216 (h) (3)

*Life Cycle = 150 months

o = overpayment; u = underpayment;

Retro=Retroactive (Before the Current Operating Month) Overpayment


   Note: Due to the small number of sample cases, it is difficult to make reliable projections of deficiency dollars for
          either Fiscal Year 1997 or Fiscal Year 1998. The sampling variability of any such projection would be very large.
 APPENDIX E (continued)

 Title II Relationship/ Dependency Payment Deficiency Dollars
 Fiscal Year 1998 Index of Dollar Accuracy Cases
                                                                                                  Weighted
 Type of Deficiency         Retro $        Current $        Future $*        Case Weight            Total $
 0520                        (o) 233            (o)233          34,950               917.8         32,504,804
 0530                                           (u)491          73,650                10.0            741,410
 0530                       (u) 2,871           (u)531          79,650                30.0          2,491,560
 0535                          (u) 250          (u)125          18,750                30.0            573,750
 0535                           (u)437            (u)95         14,250                16.0            236,512
 0620                        (o)6,327                                                304.8          1,928,779
 0720                        (u)2,560           (u)285          42,750               172.0          7,842,340
 0720                        (o)3,118           (o)727         109,050               233.5         26,357,842
 0720                        (u)1,787           (u)553          23,779                16.0            236,512
 0720                           (u)171                                               117.1             20,017
 0730                        (u)2,292                                                112.5            257,931
                             (u)2,274                                                112.5            255,906
 0820                                           (o)782         117,300               107.9         12,741,745
 1010                        (u)1,304                                                124.6            162,478
 1010                        (o)2,028           (o)507                               479.7          1,216,040
                  Totals     $25,652            $4,329        $514,129             2,788.4        $87,853,494
Code 0520 – Common-law Marriage                            Code 0530 – 10/20 Year requirement for Divorced Spouse

Code 0535 – Other Marriage Requirement

Code 0620 – Beneficiary Married                                            .

Code 0720 – Illegitimate Child With Inheritance Rights or 216 (h) (3)

Code 0730 - Stepchild Relationship

Code 0820 - Support Requirement for Child

Code 1010 – Full-time Attendance                                           o = overpayment; u = underpayment

*Life Cycle = 150 months                                                   Retro=Retroactive (Prior to Current Month) Opmt

APPENDIX E (continued)


Title II Relationship/ Dependency Payment Deficiency Dollars

Fiscal Year 1997 through Fiscal Year 1998 Stewardship Payment Deficiency Dollars
  Year    Deficiency      Deficiency Dollars     Weighted Deficiency
             Type            Unweighted                Dollars
 1997     0620                         (o) $93              $21,188,996
 1997     1010                       (o) $525              $143,510,017
 1998     1010                       (o) $500                $9,044,118
                                        Totals             $173,743,131
Code 0620 – Marriage/Termination

Code 1010 – Student – Full-Time Attendance

o - overpayment

 APPENDIX F

 Recovery of Overpayment Accounting and Reporting
 System Data Extract Summary
 We used overpayment data from the Recovery of Overpayments Accounting
 and Report system based on certain types of events codes related to title II
 relationship/dependency. We reviewed more than 200 cases as listed below.

                                                                    % of Total
        Type of          # of                    Overpayment       Overpayment
      Termination       Cases    % of Cases        Amount            Amount
        Student            111           50%       $102,481.44              35%
        Marriage            47           21%        $71,504.50              24%
     No Child in-care       32           14%        $55,334.70              19%
         Divorce            18            8%        $29,092.50              10%
          Other             15            7%        $35,436.10              12%
              TOTAL        223          100%       $293,849.24             100%

•	     Overpayments from students included terminations for the following
       reasons:
       - Student not in full-time attendance
       - Student did not return Form SSA-1388
       - Student turned age 19
       - Student turned 18 and payments were not terminated properly or timely.

 •	 Terminations for Divorce include both benefits for a stepchild and a
    spouse.

 •	 Terminations for Marriage include marriages by both those
    individuals receiving mother’s/father’s benefits and child beneficiaries.

 •	 Terminations for No Child in-care includes both cases where the child left
    the beneficiaries’ care and it was not reported and cases where the last
    child turned 16 and the system did not automatically terminate the
    benefits due to multiple household involvement.

 •	 Overpayments listed under “Other” included cases where an adverse
    adjustment occurred, disability cessations, and other cases where we
    were unable to determine the cause.

 The overwhelming majority of these overpayments resulted from a failure on
 the part of the beneficiary to report changes that affected entitlement status.
 A few cases were noted where the system failed to properly and timely
 terminate certain benefits. These cases were typically complex where more
 than one household is involved.




                                                                             F-1
Appendix G


Social Security Administration Key Contacts
Office of Central Operations

Daniel Dean
Veronica Haywood
Wilda Holt

Office of Information Management

Marci Sturgill

Office of Policy Technology and Management

Dan Knight

Office of Program Benefits Management

Kathy Branch          Jeanne O’Connor
Jim Carey             Sherrye Walker
Jo Anne Harris        Barry Wilson
Linda Mitchell

Office of Quality Assurance and Performance Assessment

Bob Calderone         Harry Magee
Chuck DiVenti         George Miller
Carol Heller          Fred Polohovich
Fran McNeil           Bob Zowney

Office of Systems

Cathy Conrad          Ken Noto
Tom DeBlase           Justus Garman
Karl Tomak

Office of Training

Ron Tilghman

New York Region, Area V

Hiram Durant


                                                         G-1
Appendix H

Modernized Claims System Title II Relationship/
Dependency Screens
The Modernized Claims System (MCS) is used to obtain information from the
claimant filing for title II benefits during the initial claims and appeals
processes. An input screen is an interactive screen that asks for information.
An interactive screen is a display on a terminal that asks the claimant for
information and gives the interviewer information.

The specific screens that capture relationship and dependency issues are the
CHD1, CHD2, DEPC, DCIC, NMAR, and CMAR. Specific information for
each screen can be found in the Modernized Systems Operations Manual,
chapters 15, 16 and 17.

Child’s Identification 1 (CHD1) is one of two screens that records basic
information about each child filing on the numberholder’s (NH) Social Security
number (SSN). The “Child Relationship” field on this screen requires an entry
of a code for the alleged type of child claimant as well as questions regarding
disability and student status. This screen also has a “Date Dependency Met”
field that is required in certain child claims.

Child’s Identification 2 (CHD2) is the second of two screens that records
basic information about each child filing on the NH’s SSN. This screen
contains questions about the date the child’s relationship is established and
records the dates the child lived with the number holder.

Dependent Children of NH (DEPC) screen requires the interviewer to list all
children of the NH who are under age 18, ages 18 to 19 and attending
secondary school, and disabled children 18 or older and disability began
before age 22.

Dependent Children-in-Care (DCIC) screen lists the names of the NH’s
dependent children that a spouse has in his/her care. This is a mandatory
screen for a spouse or surviving spouse with child-in-care claims. This
screen shows the months each child was in the care of the spouse.

NH Marriage (NMAR) screen is used to record information about a number
holder’s marriages. A NMAR is completed for each marriage.

Claimant Marriage (CMAR) screen records information about a claimant’s
marriages. A CMAR is completed for each marriage.




                                                                          H-1
